OIG Audit Report GR-80-07-005

Crime Victim Compensation Program Grant
Awarded to the Oklahoma Crime Victims Compensation Board

Audit Report GR-80-07-005


January 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, completed an audit of the Crime Victim Compensation Grants Program, Grant Number 2003 VC GX-0008, awarded by the U.S. Department of Justice, Office of Justice Programs, Office for Victims of Crime, to the Oklahoma Crime Victims Compensation Board (OCVCB) in Oklahoma City, Oklahoma.
As of May 6, 2003, the OCVCB was awarded a total of $1,525,000.  The OCVCB goal is to provide compensation and assistance to persons within the state or who are residents of the state who become victims of criminal acts and suffer physical or psychological injury or death.  It is also the intent that the OCVCB shall provide services to victims of crime, as provided by law, and assist them in completing victim compensation claims. 
The Victims of Crime Act funds are used to enhance the states victim compensation payments to eligible crime victims.  Victims of Crime Act compensation funds provide financial assistance to victims of both federal and state crimes.
We reviewed the OCVCBs compliance with essential grant conditions and found weaknesses in two of the seven areas tested  reporting and grant achievements.  No weaknesses were found in drawdowns, budget management and control, program income, matching, or expenditures.  Our report contains one recommendation that is discussed in detail in the Findings and Recommendations section.  Our audit objectives, scope, and methodology appear in Appendix I.  
We discussed the results of our audit with the OCVCB officials and included their comments in the report, as applicable.  We found:

 one out of the last four Financial Status Reports was submitted 20 days late; and 
 annual Program Reports do not list program results by individual grant numbers.